9274                  Federal Register / Vol. 65, No. 37 / Thursday, February 24, 2000 / Notices

year budget period, the applicant should      • The extent to which the planned         process and have established Single
request a one-year project period only.     measures and analyses both reflect          Points of Contact (SPOCs). Applicants
A second year budget will not be            knowledge and use of state-of-the-art       from these twenty-three jurisdictions
granted if the student has graduated by     measures and analytic techniques and        need take no action regarding E.O.
the end of the first year. Applications     advance the state-of-the-art.               12372. Applicants for projects to be
for continuation grants will be               • The extent to which the analytic        administered by Federally-recognized
entertained in the subsequent year on a     techniques are appropriate for the          Indian Tribes are also exempt from the
non-competitive basis, subject to           question under consideration.               requirements of E.O. 12372. Otherwise,
availability of funds, satisfactory           • The extent to which the proposed        applicants should contact their SPOCs
progress of the grantee and a               sample size is sufficient for the study.    as soon as possible to alert them of the
determination that continued funding          • The scope of the project is             prospective applications and receive
would be in the best interest of the        reasonable for the funds available for      any necessary instructions. Applicants
Government.                                 these grants.                               must submit any required material to
   Federal Share of Project Costs: The        • The extent to which the planned         the SPOCs as soon as possible so that
maximum Federal share shall range           approach reflects sufficient input from     the program office can obtain and
between $10,000–$20,000 for the first­      and partnership with the Head Start or      review SPOC comments as part of the
year budget period or a maximum of          Early Head Start program.                   award process. It is imperative that the
$40,000 for a two-year project period.                                                  applicant submit all required materials,
   Matching Requirements: There are no      3. Staff and Position Data—35 points
                                                                                        if any, to the SPOC and indicate the date
matching requirements.                         • The extent to which the principal      of this submittal (or the date of contact
   Anticipated Number of Projects to be     investigator (or for 1.02, the graduate     if no submittal is required) on the
Funded: It is anticipated that between 5    student) and other key research staff       Standard Form 424, item 16a.
and 10 projects will be funded with an      possess the research expertise necessary       Under 45 CFR 100.8(a)(2), a SPOC has
unspecified mixture of master’s-level       to conduct the study as demonstrated in     60 days from the application deadline to
and doctoral level applicants. No           the application and information             comment on proposed new or
university will be funded for more than     contained in their vitae.                   competing continuation awards.
one candidate, unless there are no other       • For Priority Area 1.01 the principal      SPOCs are encouraged to eliminate
approved applications. Applications         investigator(s) has earned a doctorate or   the submission of routine endorsements
from the master’s-level students will be    equivalent in the relevant field and has    as official recommendations.
evaluated separately from the               first or second author publications in         Additionally, SPOCs are requested to
applications form doctoral-level            major research journals.                    clearly differentiate between mere
students.                                      • The extent to which the proposed       advisory comments and those official
                                            staff reflect an understanding of and       State process recommendations which
Criteria for Priority Areas 1.01 and 1.02
                                            sensitivity to the issues of working in a   may trigger the accommodate or explain
  Reviewers will consider the following     community setting and in partnership
factors when assigning points.                                                          rule.
                                            with Head Start/Early Head Start               When comments are submitted
1. Results or Benefits Expected—25          program staff and parents.                  directly to ACF, they should be
points                                         • The adequacy of the time devoted
                                                                                        addressed to: William Wilson, Head
                                            to this project by the principal
   • The research questions are clearly     investigator and other key staff in order
                                                                                        Start Bureau, 330 C Street, S.W.,
stated.                                                                                 Washington, D.C. 20447, Attn: Head
                                            to ensure a high level of professional
   • The extent to which the questions      input and attention. For graduate
                                                                                        Start University Partnerships or
are of importance and relevance for low­                                                Graduate Student Head Start Research.
                                            students, the adequacy of the
income children’s development and                                                       A list of the Single Points of Contact for
                                            supervision provided by the graduate
welfare.                                                                                each State and Territory can be found
   • The extent to which the research       student’s mentor.
                                                                                        on the web site http://www.dhhs.gov/
study makes a significant contribution      Required Notification of the Single         progorg/grantsnet/laws-reg/
to the knowledge base.                      Point of Contact                            spoq0695.htm.
   • The extent to which the literature                                                   Dated: February 16, 2000.
                                              This program is covered under
review is current and comprehensive
                                            Executive Order 12372,                      Patricia Montoya,
and supports the need for the study, the
                                            Intergovernmental Review of Federal         Commissioner, Administration on Children,
questions to be addressed or the
                                            Programs, and 45 CFR part 100,              Youth and Families.
hypotheses to be tested.
   • The extent to which the questions      Intergovernmental Review of                 [FR Doc. 00–4277 Filed 2–23–00; 8:45 am]
that will be addressed or the hypotheses    Department of Health and Human              BILLING CODE 4184–01–M
that will be tested are sufficient for      Services Program and Activities. Under
meeting the stated objectives.              the Order, States may design their own
                                            processes for reviewing and                 DEPARTMENT OF HEALTH AND
2. Approach—40 points                       commenting on proposed Federal              HUMAN SERVICES
   • The extent to which the research       assistance under covered programs.
design is appropriate and sufficient for      All States and Territories except         Office of Inspector General
addressing the questions of the study.      Alabama, Alaska, Colorado,
                                                                                        Publication of OIG Special Fraud Alert
   • The extent to which child outcomes     Connecticut, Hawaii, Idaho, Kansas,
                                            Louisiana, Massachusetts, Minnesota,        on Rental of Space in Physician
are the major focus of the study.
   • The extent to which the planned        Montana, Nebraska, New Jersey, New          Offices by Persons or Entities to
research specifies the measures to be       York, Ohio, Oklahoma, Oregon, Palau,        Which Physicians Refer
used and the analyses to be conducted.      Pennsylvania, South Dakota, Tennessee,      AGENCY: Office of Inspector General
   • The extent to which the planned        Vermont, Virginia, Washington, and          (OIG), HHS.
measures are appropriate and sufficient     American Samoa have elected to
                                                                                        ACTION: Notice.
for the questions of the study.             participate in the Executive Order
                            Federal Register / Vol. 65, No. 37 / Thursday, February 24, 2000 / Notices                                                   9275

SUMMARY:   This Federal Register notice               II. Special Fraud Alert: Rental of Space               received numerous credible reports that
sets forth a recently issued OIG Special              in Physician Offices by Persons or                     in many cases, suppliers, whose
Fraud Alert concerning rental of space                Entities to Which Physicians Refer                     businesses depend on physicians’
in physicians’ offices by persons or                  (February 2000)                                        referrals, offer and pay ‘‘rents’’—either
entities that provide health care items or               The Office of Inspector General (OIG)               voluntarily or in response to
services to patients that are referred,               was established at the Department of                   physicians’’ requests—that are either
either directly or indirectly, by the                 Health and Human Services by Congress                  unnecessary or in excess of the fair
physician-landlord. For the most part,                in 1976 to identify and eliminate fraud,               market value for the space to access the
OIG Special Fraud Alerts address                      abuse and waste in the Department’s                    physicians’ potential referrals.
national trends in health care fraud,                 programs and to promote efficiency and                 The Anti-Kickback Law Prohibits Any
including potential violations of the                 economy in departmental operations.                    Payments To Induce Referrals
anti-kickback statute for Federal health              The OIG carries out this mission
care programs. This Special Fraud Alert               through a nationwide program of audits,                   Kickbacks can distort medical
specifically highlights questionable or               investigations and inspections.                        decision-making, cause overutilization,
suspect rental arrangements for space in                 To reduce fraud and abuse in the                    increase costs and result in unfair
physicians’ and other practitioners’                  Federal health care programs, including                competition by freezing out competitors
offices, and how the space rental safe                Medicare and Medicaid, the OIG                         who are unwilling to pay kickbacks.
harbor can protect legitimate                         actively investigates fraudulent schemes               Kickbacks can also adversely affect the
arrangements.                                         that are used to obtain money from                     quality of patient care by encouraging
                                                      these programs and, when appropriate,                  physicians to order services or
FOR FURTHER INFORMATION CONTACT:    Julie                                                                    recommend supplies based on profit
Kass, Office of Counsel to the Inspector              issues Special Fraud Alerts that identify
                                                      practices in the health care industry that             rather than the patients’ best medical
General, (202) 619–0335.                                                                                     interests.
                                                      are particularly vulnerable to abuse.
SUPPLEMENTARY INFORMATION:                               This Special Fraud Alert focuses on                    Section 1128B(b) of the Social
I. Background                                         the rental of space in physicians’ offices             Security Act (the Act) prohibits
                                                      by persons or entities that provide                    knowingly and willfully soliciting,
   The Office of Inspector General (OIG)              health care items or services                          receiving, offering or paying anything of
issues Special Fraud Alerts based on                  (suppliers) 3 to patients that are referred            value to induce referrals of items or
information it obtains concerning                     either directly or indirectly by their                 services payable by a Federal health
particular fraudulent or abusive                      physician-landlords. In this Special                   care program. Both parties to an
practices within the health care                      Fraud Alert, we describe some of the                   impermissible kickback transaction are
industry. Special Fraud Alerts are                    potentially illegal practices the OIG has              liable. Violation of the statute
intended for widespread dissemination                 identified in such rental relationships.               constitutes a felony punishable by a
to the health care provider community,                                                                       maximum fine of $25,000,
as well as those charged with                         Questionable Rental Arrangements for                   imprisonment up to five years, or both.
administering the Medicare and                        Space in Physician Offices                             The OIG may also initiate
Medicaid programs. To date, the OIG                      A number of suppliers that provide                  administrative proceedings to exclude
has published in the Federal Register                 health care items or services rent space               persons from Federal health care
the texts of ten previously-issued                    in the offices of physicians or other                  programs or to impose civil money
Special Fraud Alerts. 1 It is the OIG’s               practitioners. Typically, most of the                  penalties for fraud, kickbacks and other
intention to publish future Special                   items or services provided in the rented               prohibited activities under sections
Fraud Alerts in this same manner as a                 space are for patients, referred or sent,              1128(b)(7) and 1128A(a)(7) of the Act.4
regular part of our dissemination of                  either directly or indirectly, to the
                                                      supplier by the physician-landlord. In                 Suspect Rental Arrangements for Space
such information. 2
                                                      particular, we are aware of rental                     in Physician Offices
   In an effort to promote voluntary
compliance in the health care industry                arrangements between physician­                          The questionable features of suspect
and assist providers in their compliance              landlords and:                                         rental arrangements for space in
efforts, the OIG has developed a Special                 • Comprehensive outpatient                          physicians’ offices may be reflected in
Fraud Alert, set forth below, that                    rehabilitation facilities (CORFs) that                 three areas:
addresses potential problem areas with                provide physical and occupational                        • The appropriateness of rental
regard to the rental of space in                      therapy and speech-language pathology                  agreements;
physicians’ offices by persons or entities            services in physicians’ and other                        • The rental amounts; and
to which physicians refer patients.                   practitioners’ offices;                                  • Time and space considerations.
Among other things, this Special Fraud                   • Mobile diagnostic equipment
                                                                                                               Below, we examine these suspect
Alert addresses suspect rental                        suppliers that perform diagnostic
                                                                                                             areas, which separately or together may
arrangements for space in physicians’                 related tests in physicians’ offices; and
                                                         • Suppliers of durable medical                      result in an arrangement that violates
offices with regard to: (1) the                                                                              the anti-kickback statute, in order to
                                                      equipment, prosthetics, orthotics and
appropriateness of rental agreements; (2)                                                                    help identify questionable rental
                                                      supplies (DMEPOS) that set up
the rental amounts; and (3) time and                                                                         arrangements between physicians and
                                                      ‘‘consignment closets’’ for their supplies
space considerations. A reprint of this                                                                      the suppliers to which they refer
                                                      in physicians’ offices.
Special Fraud Alert follows.                             The OIG is concerned that in such                   patients. This list is not exhaustive, but
                                                      arrangements, the rental payments may
  1 See December 19, 1994 (59 FR 65372); August                                                                4 Some of the arrangements identified as suspect
10, 1995 (60 FR 40847); June 17, 1996 (61 FR
                                                      be disguised kickbacks to the physician­
                                                                                                             in this Special Fraud Alert may also implicate the
30623); April 24, 1998 (63 FR 20415); and January     landlords to induce referrals. We have                 Ethics in Patient Referrals Act, also known as the
12, 1999 (64 FR 1813).                                                                                       Stark law (section 1877 of the Act). The
  2 All OIG Special Fraud Alerts are also available     3 Persons or entities may be either suppliers or     interpretation of the Stark law is under the
on the internet at the OIG web site at http://        providers. For purposes of this Special Fraud Alert,   jurisdiction of the Health Care Financing
www.dhhs.gov/progorg/oig/frdalrt/index.htm.           we will refer to such persons as suppliers.            Administration (HCFA).
9276                        Federal Register / Vol. 65, No. 37 / Thursday, February 24, 2000 / Notices

rather gives examples of indicators of                • Rental amounts that vary with the               space for an amount equivalent to eight
potentially unlawful activity.                      number of patients or referrals;                    hours per week;
                                                      • Rental arrangements that set a fixed               • Non-exclusive occupancy of the
Appropriateness of Rental Agreements                rental fee per hour, but do not fix the             rented portion of space. For example, a
   The threshold inquiry when                       number of hours or the schedule of
examining rental payments is whether                                                                    physical therapist does not rent space in
                                                    usage in advance (i.e., ‘‘as needed’’
payment for rent is appropriate at all.                                                                 a physician’s office, but rather moves
                                                    arrangements);
Payments of ‘‘rent’’ for space that                   • Rental amounts that are only paid if            from examination room to examination
traditionally has been provided for free            there are a certain number of Federal               room treating patients after they have
or for a nominal charge as an                       health care program beneficiaries                   been seen by the physician. Since no
accommodation between the parties for               referred each month; and                            particular space is rented, we will
the benefit of the physicians’ patients,              • Rental amounts that are                         closely scrutinize the proration of time
such as consignment closets for                     conditioned upon the supplier’s receipt             and space used to calculate the
DMEPOS, may be disguised kickbacks.                 of payments from a Federal health care              therapist’s ‘‘rent.’’.
In general, payments for rent of                    program.                                               In addition, rental amount
consignment closets in physicians’                  Time and Space Considerations                       calculations should prorate rent based
offices are suspect.5                                                                                   on the amount of space and duration of
                                                       Suppliers should only rent premises              time the premises are used. The basis
Rental Amounts                                      of a size and for a time that is reasonable         for any proration should be documented
  Rental amounts should be at fair                  and necessary for a commercially                    and updated as necessary. Depending
market value, be fixed in advance and               reasonable business purpose of the                  on the circumstances, the supplier’s rent
not take into account, directly or                  supplier. Rental of space that is in                can consist of three components: (1)
indirectly, the volume or value of                  excess of suppliers’ needs creates a                Exclusive office space; (2) interior office
referrals or other business generated               presumption that the payments may be                common space; and (3) building
between the parties. Fair market value              a pretext for giving money to physicians            common space.
rental payments should not exceed the               for their referrals. Examples of suspect
amount paid for comparable property.                arrangements include:                                  1. Apportionment of exclusive office
Moreover, where a physician rents                      • Rental amounts for space that is               space.—The supplier’s rent should be
space, the rate paid by the supplier                unnecessary or not used. For instance,              calculated based on the ratio of the time
should not exceed the rate paid by the              a CORF requires one examination room                the space is in use by the supplier to the
physicians in the primary lease for their           and rents physician office space one                total amount of time the physician’s
office space, except in rare                        afternoon a week when the physician is              office is in use. In addition, the rent
circumstances. Examples of suspect                  not in the office. The CORF calculates              should be calculated based on the ratio
arrangements include:                               its rental payment on the square footage            of the amount of space that is used
  • Rental amounts in excess of                     for the entire office, since it is the only         exclusively by the supplier to the total
amounts paid for comparable property                occupant during that time, even though              amount of space in the physician’s
rented in arms-length transactions                  the CORF only needs one examination                 office. For example, where a supplier
between persons not in a position to                room;                                               rents an examination room for four
refer business;                                        • Rental amounts for time when the               hours one afternoon per week in a
  • Rental amounts for subleases that               rented space is not in use by the                   physician’s office that has four
exceed the rental amounts per square                supplier. For example, an ultrasound                examination rooms of equal size and is
foot in the primary lease;                          supplier has enough business to support             open eight hours a day, five days per
  • Rental amounts that are subject to              the use of one examination room for                 week, the supplier’s prorated annual
modification more often than annually;              four hours each week, but rents the                 rent would be calculated as follows:

                                    Percent of physician
Physician office rent per                                         Percent of each day             No. of days rented by
                                   office space rented by
          day                                                      rented by supplier               supplier per year
                                           supplier

Annual rent of primary        ×   Sq. ft. exclusively oc-   ×   4 hours ÷ 8 hours .......   ×     52 days (i.e., ÷ 1 day     =   Supplier’s annual rent
  lease ÷ no. of work               cupied by supplier ÷                                            per week).                     for exclusive space
  days per year.                    total office sq. ft.



   2. Apportionment of interior office              apportioned among all physicians and                space) occupied by all persons using
common space.—When permitted by                     subtenants that use the interior office             such common space.
applicable regulations, rental payments             common space based on the amount of                   3. Apportionment of building
may also cover the interior office                  non-common space they occupy and the                common space.—Where the physician
common space in physicians’ offices                 duration of such occupation. Payment                pays a separate charge for areas of a
that are shared by the physicians and               for the use of office common space                  building that are shared by all tenants,
any subtenants, such as waiting rooms.              should not exceed the supplier’s pro                such as building lobbies, it may be
If suppliers use such common areas for              rata share of the charge for such space             appropriate for the supplier to pay a
                                                                                                        prorated portion of such charge. As with
their patients, it may be appropriate for           based upon the ratio of the space used
                                                                                                        interior office common space, the cost of
the suppliers to pay a prorated portion             exclusively by the supplier to the total
                                                                                                        the building common space must be
of the charge for such space. The charge            amount of space (other than common
                                                                                                        apportioned among all physicians and
for the common space must be                                                                            subtenants based on the amount of non­
  5 This Special Fraud Alert does not address the   arrangements under HCFA’s DMEPOS supplier           supplier standards is a matter under HCFA’s
appropriateness of consignment closet               standards. The interpretation of the DMEPOS         jurisdiction.
                                     Federal Register / Vol. 65, No. 37 / Thursday, February 24, 2000 / Notices                                                                                   9277

common space they occupy and the                                         term of the agreement and specifies the                                    Arrangements for office equipment or
duration of such occupation. For                                         premises covered by the agreement.                                       personal services of physicians’ office
instance, in the example in number one                                     • If the agreement is intended to                                      staff can also be structured to comply
above, the supplier’s share of the                                       provide the lessee with access to the                                    with the equipment rental safe harbor
additional levy for building common                                      premises for periodic intervals of time                                  and personal services and management
space could not be split 50/50.                                          rather than on a full-time basis for the                                 contracts safe harbor. (See 42 CFR
                                                                         term of the rental agreement, the rental                                 1001.952(c) and (d), as amended by 64
The Space Rental Safe Harbor Can
                                                                         agreement specifies exactly the schedule                                 FR 63518 (November 19, 1999)).
Protect Legitimate Arrangements
                                                                         of such intervals, their precise length,                                 Specific equipment used should be
   We strongly recommend that parties                                    and the exact rent for such intervals.                                   identified and documented and
to rental agreements between physicians                                                                                                           payment limited to the prorated portion
and suppliers to whom the physicians                                       • The term of the rental agreement is
                                                                                                                                                  of its use. Similarly, any services
refer or for which physicians otherwise                                  for not less than one year.
                                                                                                                                                  provided should be documented and
generate business make every effort to                                     • The aggregate rental charge is set in                                payment should be limited to the time
comply with the space rental safe harbor                                 advance, is consistent with fair market                                  actually spent performing such services.
to the anti-kickback statute. (See 42 CFR                                value in arms-length transactions, and is
1001.952(b), as amended by 64 FR                                         not determined in a manner that takes                                    What To Do If You Have Information
63518 (November 19, 1999)). When an                                      into account the volume or value of any                                  About Fraud and Abuse Against
arrangement meets all of the criteria of                                 referrals or business otherwise                                          Medicare or Medicaid Programs
a safe harbor, the arrangement is                                        generated between the parties for which                                    If you have information about
immune from prosecution under the                                        payment may be made in whole or in                                       physicians, DMEPOS suppliers, CORFs
anti-kickback statute. The following are                                 part under Medicare or a State health                                    or other suppliers engaging in any of the
the safe harbor criteria, all of which                                   care program.                                                            activities described above, contact any
must be met:                                                               • The aggregate space rented does not                                  of the regional offices of the Office of
   • The agreement is set out in writing                                 exceed that which is reasonably                                          Investigations of the Office of Inspector
and signed by the parties.                                               necessary to accomplish the                                              General, U.S. Department of Health and
   • The agreement covers all of the                                     commercially reasonable business                                         Human Services, at the following
premises rented by the parties for the                                   purpose of the rental.                                                   locations:

                     Field offices                                                                                States served                                                             Telephone

Boston .....................................................     MA, VT, NH, ME, RI, CT .........................................................................................           617–565–2664
New York .................................................       NY, NJ, PR, VI .........................................................................................................   212–264–1691
Philadelphia .............................................       PA, MD, DE, WV, VA, DC .......................................................................................             215–861–4586
Atlanta .....................................................    GA, KY, NC, SC, FL, TN, AL, MS ...........................................................................                 404–562–7603
Chicago ...................................................      IL, MN, WI, MI, IN, OH, IA ......................................................................................          312–353–2740
Dallas .......................................................   TX, NM, OK, AR, LA, CO, UT, WY, MT, ND, SD, NE, KS, MO .............................                                       214–767–8406
Los Angeles .............................................        AZ, NV, So. CA .......................................................................................................     714–246–8302
San Francisco .........................................          No. CA, AK, HI, OR, ID, WA ...................................................................................             415–437–7961



  Dated: February 16, 2000.                                              individuals associated with the grant                                    Cancer Control, National Institutes of Health,
June Gibbs Brown,                                                        applications, the disclosures of which                                   HHS)
Inspector General.                                                       would constitute a clearly unwarranted                                     February 16, 2000.
[FR Doc. 00–4212 Filed 2–22–00; 8:45 am]                                 invasion of personal privacy.                                            LaVerne Y. Stringfield,
BILLING CODE 4150–01–U                                                     Name of Committee: National Cancer                                     Director, Office of Federal Advisory
                                                                         Institute Special Emphasis Panel, Cancer                                 Committee Policy.
                                                                         Intervention and Surveillance Modeling                                   [FR Doc. 00–4299 Filed 2–23–00; 8:45 am]
DEPARTMENT OF HEALTH AND                                                 Network (CISNET).                                                        BILLING CODE 4140–01–M
HUMAN SERVICES                                                             Date: March 30–31, 2000.
                                                                           Time: 8 a.m. to 5 p.m.
National Institutes of Health                                              Agenda: To review and evaluate grant                                   DEPARTMENT OF HEALTH AND
                                                                         applications.
                                                                                                                                                  HUMAN SERVICES
National Cancer Institute; Notice of                                       Place: Double Tree Hotel, 1750 Rockville
Closed Meeting                                                           Pike, Rockville, MD 20852.                                               National Institutes of Health
                                                                           Contact Person: Lalita D. Palekar, PhD.
   Pursuant to section 10(d) of the                                      Scientific Review Administrator, Special                                 National Cancer Institute; Notice of
Federal Advisory Committee Act, as                                       Review, Referral and Resources Branch,
                                                                         Division of Extramural Activities, National
                                                                                                                                                  Closed Meeting
amended (5 U.S.C. Appendix 2), notice
is hereby given of the following                                         Cancer Institute, National Institutes of                                    Pursuant to section 10(d) of the
meeting.                                                                 Health, 6116 Executive Boulevard, Room                                   Federal Advisory Committee Act, as
   The meeting will be closed to the                                     8066, Bethesda, MD 20892–7405, 301/496–                                  amended (5 U.S.C. Appendix 2), notice
public in accordance with the                                            7575.
                                                                                                                                                  is hereby given of the following
provisions set forth in sections                                         (Catalogue of Federal Domestic Assistance                                meeting.
552b(c)(4) and 552b(c)(6), Title 5 U.S.C.,                               Program Nos. 93.392, Cancer Construction;
                                                                                                                                                     The meeting will be closed to the
                                                                         93.393, Cancer Cause and Prevention
as amended. The grant applications and                                   Research; 93.394, Cancer Detection and                                   public in accordance with the
the discussions could disclose                                           Diagnosis Research; 93.395, Cancer                                       provisions set forth in sections
confidential trade secrets or commercial                                 Treatment Research; 93.396, Cancer Biology                               552b(c)(4) and 552b(c)(6), Title 5 U.S.C.,
property such as patentable material,                                    Research; 93.397, Cancer Centers Support;                                as amended. The grant applications and
and personal information concerning                                      93.398, Cancer Research Manpower; 93.399,                                the discussions could disclose
